HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Contractor, General American Life Insurance Company, (A-07-00-00109)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, General
American Life Insurance Company," (A-07-00-00109)
September 29, 2000
Complete
Text of Report is available in PDF format (520 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The General American Life Insurance Company served as a Medicare Part B contractor
until their contract was terminated in 1998. Federal regulations and Medicare
contract provisions require pension gains, which occur when a Medicare segment
of a pension plan closes, be credited to the Medicare program. We identified
about $3.5 million in excess Medicare pension assets at General American at
the time of contract termination. Our methodology and calculations were reviewed
by the Health Care Financing Administration's pension actuarial staff. We are
recommending that General American remit the $3.5 million to the Medicare program.